                     CLOSE OUT for M91100039



This case came to OIG in a 9/30/91 letter addressed to the


She strongly suggegted intellectual theft of ideas she and her
colleagues at the                   Project had originated and
developed. She indicated that charges of plagiarism could follow
in connection with the worksho~ announced for the (sub?ectrs)



In response to OIG1s request for specific allegations the
complainant indicated that she had interacted with the subject and
that she did not wish to pursue this matter. Since OIG1s review
through 31 March 93 could find nothing to link the subject's
workshop with either a proposal to or an award from NSF, we are
closing this case for lack of jurisdiction.

31 March 1993




Copies to: Inspector General
        .   AIG-0
            Dc lb
